                                                      NATIONAL SCIENCE FOUNDATION
                                                       OlTICE Op INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

                                                                                       11            Page 1 of 1



          We received information fiom the United States Department of Justice (DOJ) that an institution
          (subject)' entered into an agreement with the United states2 to settle a qui tam actioa3 The major
          claim of the lawsuit was that the subject failed to have adequate internal controls to ensure that cost
          transfers were made in a timely fashion, for an appropriatereason, and with adequate documentation.
           Moreover, during the initial investigation it was determined that the subject's accounting systems
         'were incapable of complying with applicable Federal regulations regarding the request, receipt, and
          use of Federal grant proceeds. -

         As a result of the settlement agreement, NSF received a recovery of $4,826 as its proportion of
         the recovery. The settlement did not address or mandate any compliance plan. Thus, subsequent
         to the settlement agreement, OIG forwarded the information received fiom DOJ to NSF and
         requested that NSF take a series of actions to protect NSF award funds issued to the subject. In
         response, NSF agreed to take the recommended actions to protect NSF funds.

           Accordingly, this case is closed.




          ' Mayo Foundation
           Settlement Agreement (Attachment 1)
           United States ex rel. Lone v. Mavo Foundation, CV02-522 ADMISRN, filed on March 1, 2002 by Christine Long,
          a former accounting associate for the Mayo Foundation's Research Accounting Department.



NSF OIG Form 2 (1 1/02)
